NO.

go-solo o«j,giNAL
FILED

IN THE

JUL 0 1 2020

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

DANNY LEE WARNER JR. - PETITIONER
VS.
STATE OF MONTANA - RESPONDENT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a
writ of certiorari without prepayment of costs and to proceed IN
FORMA PAUPERIS.
Petitioner has previously been granted leave to proceed IN
FORMA PAUPERIS in the following courts:
Supreme Court of the state of Montana; and
Eleventh Judicial District Court, Flathead County, Montana
The appointment was made under Montana Code Annotated 47-1-104

i
Zl
'J2sl

DANNYVL
W^fiER JR.
3022806
700 CONLEY LAKE ROAD
DEER LODGE, MT 59722

received

JUL - 8 2020
9f,gg#.,°FF<5'§BTlElsl

